... Case 2:19-cv-00012-JRS-DLP Document 35 Filed 12/14/20 Page 3 of 3 PagelD #: 2299
Case: 20-1657
Document: 00713731978
Filed: 12/14/2020
Pages: 1

Mrntett jitafes Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
Submitted November 13,2020
Decided November 20, 2020

ciETmEpeop^
rg

Before
DIANE P. WOOD, Circuit Judge

Court'df^pjieds Ts*0g'SeteatK-dicu*_i->"'

DAVID F. HAMILTON, Circuit Judge

No. 20-1657
LAWRENCE NUNLEY,
Petitioner-Appellant,

v.
RICHARD BROWN,
Respondent-Appellee.

Appeal from the United States District
Court for the Southern District of Indiana,
Terre Haute Division.
No. 2:19-cv-00012-JRS-DLP
James R. Sweeney II,

Judge.
ORDER

Lawrence Nunley has filed a notice of appeal from the denial of his petition
under 28 U.S.C. § 2254 and an application for a certificate of appealability. We have
reviewed the final order of the district court and the record on appeal and find no
substantial showing of the denial of a constitutional right. See 28 U.S.C. § 2253(c)(2).
Accordingly, Nunley's request for a certificate of appealability and his motion to
proceed in forma pauperis are denied.

. Case 2:19-cv-00012-JRS-DLP Document 23 Filed 03/30/20 Page 1 of 1 PagelD #: 2008

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
TERRE HAUTE DIVISION
LAWRENCE NUNLEY,
Petitioner,
v.
RICHARD BROWN,
Respondent.

)
)
)
)
)
)
)
)
)

No. 2:19-cv-00012-JRS-DLP

FINAL JUDGMENT
The Court now enters final judgment. The petitioner’s petition for a writ of habeas corpus
is denied, and the action is dismissed with prejudice.

Date: 3/30/2020

Laura A. Briggs, Clerk

BY:

—\ ^

Deputy Clgfic, U.S. District^urt

Distribution:
LAWRENCE NUNLEY
198710
WABASH VALLEY - CF
WABASH VALLEY CORRECTIONAL FACILITY - Inmate Mail/Parcels
Electronic Service Participant - Court Only
Jesse R. Drum
INDIANA ATTORNEY GENERAL
jesse.drum@atg.in.gov

i

JAMES R. SWEENEY II, JjJDGE
United States District Court
Southern District of Indiana

. Case 2:19-cv-00012-JRS-DLP Document 22 Filed 03/30/20 Page 1 of 23 PagelD #: 1985

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
TERRE HAUTE DIVISION
LAWRENCE NUNLEY,
Petitioner,
v.

RICHARD BROWN,
Respondent.

)
)
)
)
)
)
)
)
)

No. 2:19-cv-00012-JRS-DLP

Order Denying Petition for a Writ of Habeas Corpus
In his petition for a writ of habeas corpus, Lawrence Nunley challenges his 2008 Harrison
County convictions for child molesting and disseminating matter harmful to a minor. For the
reasons explained in this Order, Mr. Nunley’s petition for a writ of habeas corpus is denied, and
the action is dismissed with prejudice. In addition, the Court finds that a certificate of appealability
should not issue.
I. Background
District court review of a habeas petition presumes all factual findings of the state court to
be correct, absent clear and convincing evidence to the contrary. See 28 U.S.C. § 2254(e)(1);
Daniels v. Knight, 476 F.3d 426, 434 (7th Cir. 2007). The Indiana Court of Appeals summarized
Mr. Nunley’s offense as follows:
Nunley lived with his teenage son and his son’s girlfriend, K.S. K.S. sometimes
babysat six-year-old A.Y. A.Y.’s mother, T.C., testified A.Y. “loved [K.S.] to
death.” (Tr. at 534.) On April 13, 2007, A.Y. asked to spend the night at Nunley’s
residence. When T.C. dropped off A. Y., Nunley told her K.S. was on the way there.
T.C. was under the impression that K.S. would be watching A.Y. According to
A.Y., K.S. and her boyfriend were there for only a brief time that night.
Sometime during the evening, Nunley called A.Y. back to his bedroom and showed
her a pornographic video. A.Y. was wearing a tee shirt and panties. He took off her
panties and licked her vagina. He also made her suck on his penis.

. Case 2:19-cv-00012-JRS-DLP Document 22 Filed 03/30/20 Page 2 of 23 PagelD #: 1986

The next day, T.C. and R.C. picked up A.Y. After they had been in the car for a
few minutes, A.Y. told them she and Nunley had a secret. A.Y. would not say what
it was, so T.C. tried to trick her into telling by saying, “That’s okay. I know what
the secret is.” (Id. at 537.) Then A.Y. wanted to tell them, but she did not want to
say it out loud, so her parents gave her a pencil and an envelope to write on. Her
note indicated she “was sucking his weenie-bob and he was licking my pee-pee.”
{Id. at 626.)
After reading the note, T.C. turned the vehicle around and went back to Nunley’s
residence. She took a bat and started hitting Nunley’s motorcycle and truck so he
would come outside. Nunley came to the door. T.C. yelled at him and accused him
of molesting A.Y. Nunley denied her accusations.
T.C., R.C., and A.Y. then went to the Washington County Police Department to
make a report. They spoke to State Trooper Kevin Bowling. Trooper Bowling first
attempted to interview A.Y. alone, but that did not work well, so T.C. stayed in the
room with her while A.Y. answered questions. A.Y. said Nunley made her watch a
“bad movie.” {Id. at 626.) Trooper Bowling asked her what she meant by that, and
she said, a “naked movie.” (Id.) T.C. showed him the note A.Y. had written. T.C.
believed she left the note with Trooper Bowling, but Trooper Bowling had no
record or recollection of what happened with the note. Trooper Bowling referred
the case to the Department of Child Services.
Authorities tried to arrange a forensic interview of A.Y., but T.C. did not
immediately follow through. The interview was finally conducted on April 18,
2008, a little over a year after A.Y. was molested.
Donna Lloyd Black conducted the forensic interview of A.Y. at Comfort House.
A.Y.’s interview was videotaped. Comfort House has an observation room for
representatives from the prosecutor’s office, law enforcement, and the Department
of Child Services. Black can communicate with them by two-way radio, but
a child being interviewed cannot see or hear the people in the observation room.
Detective William Wibbels was in the observation room during A.Y.’s interview.
Nunley was charged with four counts of Class A felony child molesting: Count 1
alleged he touched A.Y.’s vagina with his mouth, Count 2 alleged he made A.Y.
put her mouth on his penis, Count 3 alleged he put his hand in A.Y.’s vagina, and
Count 4 alleged he touched A.Y.’s vagina with his penis. He was also charged with
one count of Class D felony dissemination of matter harmful to minors, which
alleged he showed A.Y. a pornographic movie.
At the time of trial, A.Y. was eight years old. A.Y. started crying at several points
during her testimony and needed multiple breaks. A.Y. stated it was hard to say
what had happened and that she could only write it. The prosecutor then had her
write down what happened and read it to the jury. She testified she saw Nunley’s
penis when he made her suck on it and he licked her “pee pee.” (Tr. at 450.) A.Y.
2

* Case 2:19-cv-00012-JRS-DLP Document 22 Filed 03/30/20 Page 3 of 23 PagelD #: 1987

testified he forced her to do these things by threatening to hurt her parents or call
the police.
T.C. testified as to why she did not immediately bring A.Y. for a forensic interview:
“I had second thoughts ... just because of the fact of putting my daughter through
this. And not only that... there’s a side of you that thinks maybe if you just don’t
acknowledge it, that it’ll go away.” (Id. at 549.) A juror asked, “[Wjhat made you
continue to think about it? What, was it brought up by [A.Y.]?” (Id. at 569). T.C.
responded, “No, it wasn’t brought up by [A.Y.]. It was brought up by other people.
Uhm, there were other allegations that I had heard about.” (Id.) Nunley objected
and moved for a mistrial, because T.C. had been instructed not to refer to any other
allegations against him. The trial court denied the motion for mistrial because T.C.
did not specify the nature of the allegations, and it instructed the jury to disregard
T.C.’s answer.
The videotape was played for the jury. The video was difficult to understand in
some places, but Black testified she was able to understand what A.Y. was saying
to her during the interview. The prosecutor therefore asked Black to recount how
A.Y. had said Nunley had touched her. Black testified A.Y. said Nunley “touched
her on her pee-pee with his weenie-bob, his hand and his tongue,” that he “made
her put his weenie-bob in her mouth and suck it,” and that he made her watch a
video with naked people in it. (Id. at 613.) Detective Wibbels also testified
concerning A.Y.’s allegations made during the interview.
Nunley testified [on] his own behalf. He claimed T.C. called and asked if he could
watch A.Y. while she went to Corydon. He asserted T.C. did not bring any extra
clothes for A.Y., and he did not think A.Y. would be spending the night. He
claimed A.Y. fell asleep on the couch soon after arriving, and then his friend,
Michelle Cayton, came over to Nunley’s residence to spend the night, leaving
shortly before T.C. picked up A.Y. Nunley claimed he was in a relationship with
T.C., and when T.C. came to pick up A.Y., she asked to move in with him. He
would not let her, and she was angry when she left. Although Nunley voluntarily
spoke with the police, he never told them Cayton had been at his residence on the
night in question.
The jury found Nunley guilty as charged.
Nunley v. State, 916N.E.2d 712, 714-16 (Ind. Ct App. 2009) ^Nunley F) (footnotes omitted).
On appeal, Nunley raised four issues, which the Indiana Court of Appeals reordered and
restated:
(1) whether the trial court committed reversible error by admitting A.Y.’s hearsay
statements via the videotape ofher interview and the testimony of several witnesses;
(2) whether the trial court abused its discretion by excluding evidence A.Y. had
3

» Case 2:19-CV-00012-JRS-DLP Document 22 Filed 03/30/20 Page 4 of 23 PagelD #: 1988

accused her mother’s boyfriend of attacking her and then later recanted; (3) whether
the prosecutor committed misconduct by stating in her closing argument that A.Y.
had not been taught how to lie; and (4) whether the trial court abused its discretion
by denying Nunley’s motion for a mistrial after T.C. referred to other allegations
against Nunley.
Id. at 716. The court first held that the testimony about what A.Y. wrote on the envelope was
admissible but that A.Y.’s forensic interview was not. Id. at 716-19. The court reversed
Mr. Nunley’s child molesting convictions in Counts 3 and 4, which were based solely on the
interview, but “concludefd] that the admission of the evidence was harmless error as to Counts 1,
2, and 5 because it was merely cumulative of other properly admitted evidence, including A.Y.’s
own trial testimony.” Id. at 719.
Next, the court held that the trial court properly excluded evidence that A.Y. had falsely
accused her mother’s boyfriend of attacking her. Id. at 720-21. The court concluded that the
evidence was not admissible under Indiana Evidence Rule 608(b) and did not deny Mr. Nunley his
right to present a defense. Id. at 721. The court then held that Mr. Nunley waived his argument that
the prosecutor committed misconduct during closing argument by not moving for a mistrial. Id. at
722. Finally, the court held that the trial court did not abuse its discretion when it denied a mistrial
after T.C. referred to “other allegations” because T.C. was not specific and the court admonished
the jury. Id.
Mi'. Nunley filed a petition to transfer to the Indiana Supreme Court, raising two issues.
Dkt. 14-6. First, he argued that the trial court violated his right to present a defense when it
excluded evidence about A.Y.’s false allegation. Id. at 6-8. Second, he argued that the trial court
abused its discretion when it admitted hearsay. Id. at 8-10. The Indiana Supreme Court asked the
parties to submit additional briefing on Indiana Evidence Rule 608. Dkt. 14-2 at 4. Mr. Nunley

4

. Case 2:19-CV-00012-JRS-DLP Document 22 Filed 03/30/20 Page 5 of 23 PagelD #: 1989

argued that the trial court violated his right to cross-examination. Dkt. 14-7. The court denied
Mr. Nunley’s petition on March 4, 2010. Dkt. 14-2 at 4.
Following his direct appeal, Mr. Nunley filed a petition for post-conviction relief in state
court. He asserted that both his trial and appellate counsel provided ineffective assistance of
counsel in several respects. Nunley v. State, 2018 WL 2325438 (Ind. Ct. App. May 23, 2018)
(“Nunley IF). The trial court denied Mr. Nunley’s petition following a hearing, and the Indiana
Court of Appeals affirmed. Id at *9. The Indiana Supreme Court denied Mr. Nunley’s petition to
transfer. Dkt. 14-10 at 9.
Mr. Nunley next filed the instant petition for a writ of habeas corpus pursuant to
28 U.S.C. § 2254 with this Court raising several issues.
II. Applicable Law
A federal court may grant habeas relief only if the petitioner demonstrates that he is in
custody “in violation of the Constitution or laws ... of the United States.” 28 U.S.C. § 2254(a).
The Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”) directs how the Court
must consider petitions for habeas relief under § 2254. “In considering habeas corpus petitions
challenging state court convictions, [the Court’s] review is governed (and greatly limited) by
AEDPA.” Dassey v. Dittmann, 877 F.3d 297, 301 (7th Cir. 2017) (en banc) (citation and quotation
marks omitted). “The standards in 28 U.S.C. § 2254(d) were designed to prevent federal habeas
retrials and to ensure that state-court convictions are given effect to the extent possible under law.”
Id. (citation and quotation marks omitted).
A federal habeas court cannot grant relief unless the state court’s adjudication of a federal
claim on the merits:

5

. Case 2:19-cv-00012-JRS-DLP Document 22 Filed 03/30/20 Page 6 of 23 PagelD #: 1990

(1) resulted in a decision that was contrary to, or involved an unreasonable
application of, clearly established Federal law, as determined by the Supreme
Court of the United States; or
(2) resulted in a decision that was based on an unreasonable determination of the
facts in light of the evidence presented in the State court proceeding.
28 U.S.C. § 2254(d).
“The decision federal courts look to is the last reasoned state-court decision to decide the
merits of the case, even if die state’s supreme court then denied discretionary review.” Dassey,
877 F.3d at 302. “Deciding whether a state court’s decision ‘involved’ an unreasonable application
of federal law or ‘was based on’ an unreasonable determination of fact requires the federal habeas
court to train its attention on the particular reasons—both legal and factual—why state courts
rejected a state prisoner’s federal claims, and to give appropriate deference to that decision[.]”
Wilson v. Sellers, 138 S. Ct. 1188, 1191-92 (2018) (citation and quotation marks omitted). “This
is a straightforward inquiry when the last state court to decide a prisoner’s federal claim explains
its decision on the merits in a reasoned opinion.” Id. “In that case, a federal habeas court simply
reviews the specific reasons given by the state court and defers to those reasons if they are
reasonable.” Id.
‘Tor purposes of § 2254(d)(1), an unreasonable application of federal law is different from
an incorrect application of federal law.” Harrington v. Richter, 562 U.S. 86, 101 (2011). “A state
court’s determination that a claim lacks merit precludes federal habeas relief so long as fairminded
jurists could disagree on the correctness of the state court’s decision.” Id. “If this standard is
difficult to meet, that is because it was meant to be.” Id. at 102. “The issue is not whether federal
judges agree with the state court decision or even whether the state court decision was correct. The
issue is whether the decision was unreasonably wrong under an objective standard.” Dassey, 877
F.3d at 302. “Put another way, [the Court] ask[s] whether the state court decision ‘was so lacking
6

. Case 2:19-CV-00012-JRS-DLP Document 22 Filed 03/30/20 Page 7 of 23 PagelD #: 1991
4 \

m justification that there was an error well understood and comprehended in existing law beyond
any possibility for fairminded disagreement.’” Id. (quoting Richter, 562 U.S. at 103).
m. Discussion
Mr. Nunley raises four claims in his petition. The first two—that he was denied his right
to prevent a defense and his right to confrontation—were last discussed by the Indiana Court of
Appeals on direct appeal in Nunley I. The third and fourth claims—ineffective assistance of trial
counsel and ineffective assistance of appellate counsel—were last discussed by the Indiana Court
of Appeals on post-conviction review in Nunley II. The Court addresses each claim in turn.
A.

Denial of a Defense
“The Constitution guarantees criminal defendants a meaningful opportunity to present a

complete defense.” Nevada v. Jackson, 569 U.S. 505, 509 (2013) (per curiam) (internal citation
and quotation omitted). Mr. Nunley argues he was deprived of his opportunity to present a
complete defense when the trial court excluded evidence of an unrelated recantation A.Y. made.
Shortly before Mr. Nunley’s trial, A.Y.’s mother had been dating a man named Eddie
Foreman. Foreman violently beat her, resulting in serious injuries. DA App.1 at 202, 251. A.Y.
witnessed the incident and called the police. Id. at 202. A.Y. initially told police that Foreman
injured her, too, because “I just wanted him to go to jail really, ‘cause he deserved it.” Id. at 20203. About six weeks later, A.Y. went to the prosecutor’s office with a note that stated Foreman
had not assaulted her and “she did not want to see him get in trouble for something he didn’t do.”
Tr. 379-80.

1 The Court uses the following citation format throughout this Order: “Tr.” — Trial Transcript; “DA App.”
- Direct Appeal Appendix; “PCR Tr.” - Post-Conviction Hearing Transcript
7

. Case 2:19-cv-00012-JRS-DLP Document 22 Filed 03/30/20 Page 8 of 23 PagelD #: 1992

Mr. Nunley’s counsel sought to introduce evidence of this incident to attack A.Y.’s
credibility. Id at 378. The State objected, citing Indiana Rule of Evidence 608(b). That rule
provides:
Except for a criminal conviction under Rule 609, extrinsic evidence is not
admissible to prove specific instances of a witness’s conduct in order to attack or
support the witness’s character for truthfulness. But the court may, on crossexamination, allow them to be inquired into if they are probative of the character
for truthfulness or untruthfulness of another witness whose character the witness
being cross-examined has testified about.
The trial court excluded the evidence, stating that part of the reason for the rule was to
avoid “hav[ing] a series of mini trials about ...any instances that a person might’ve lied in thenentire lifetime so that there wouldn’t be a trial about a hundred collateral matters.” Tr. at 382, 385.
On appeal, the court rejected the argument that the exclusion of this evidence violated
Mr. Nunley’s Sixth Amendment right to present a defense. Nunley I, 916 N.E.2d at 720. It held
that the trial court properly excluded the evidence under Indiana Evidence Rule 608(b). Id. It relied
on another Indiana Court of Appeals case, Saunders v. State, 848 N.E.2d 117,1122 (Ind. Ct. App.
2006), which correctly identified the Sixth Amendment right. The Saunders court stated “that the
evidence rule preventing evidence of specific acts of untruthfulness must yield to a defendant’s
Sixth Amendment right of confrontation and right to present a full defense.” Id. However, in
upholding the trial court’s decision to not allow extrinsic evidence for impeachment, it noted that
the Indiana Supreme Court had “limited this exception to very narrow circumstances—specifically
prior false accusations of rape.” Id. (citing State v. Walton, 715 N.E.2d 824, 827 (Ind. 1999)).
“[Sjtate and federal rulemakers have broad latitude under the Constitution to establish
rules excluding evidence from criminal trials.” Jackson, 569 U.S. at 509. A state’s rules of
evidence give way to a defendant’s right to present a complete defense only when those rules
(1) ‘“infringe upon a weighty interest of the accused’” and (2) “‘are arbitrary or disproportionate
8

♦ Case 2:19-cv-00012-JRS-DLP Document 22 Filed 03/30/20 Page 9 of 23 PagelD #: 1993

to the purposes they are designed to serve.”’ Hanson v. Beth, 738 F.3d 158, 163 (7th Cir. 2013)
(quoting Holmes v. South Carolina, 547 U.S. 319,324 (2006)).
The Supreme Court decision in Jackson is particularly instructive. On trial for rape, the
defendant tried to present police reports and officer testimony to show that the victim had accused
him of assaulting her before, which the police could not corroborate. Jackson, 569 U.S. at 507.
The trial court excluded the evidence under a Nevada statute that generally precludes extrinsic
evidence of specific instances of the witness’s conduct to attack her credibility. Id. at 509. On
federal habeas, the defendant argued that the trial court violated his constitutional right to present
a defense. Id. at 508. The Ninth Circuit agreed and granted a conditional writ of habeas corpus. Id.
The Supreme Court reversed because the state court’s decision was reasonable. Id. at 509,
512. Like the Indiana Court of Appeals here, the state court “recognized and applied the correct
legal principle.” Id. at 509 (quotation marks and citation omitted). The court also applied a state
statute supported by Supreme Court precedent and “akin to the widely accepted rule of evidence
law that generally precludes the admission of evidence of specific instance of a witness’ conduct
to prove the witness’ character for untruthfulness.” Id. at 509-10 (citing Clarkv. Arizona, 548 U.S.
735, 775 (2006); Fed. Rule Evid. 608(b)). “The constitutional propriety of this rule cannot be
seriously disputed.” Id. at 510. The Supreme Court reasoned that “[t]he admission of extrinsic
evidence of specific instances of a witness’ conduct to impeach the witness’ credibility may
confuse the jury, unfairly embarrass the victim, surprise the prosecution, and unduly prolong die
trial.” Id at 511. Because no Supreme Court decision “clearly establishes that the exclusion of
such evidence for such reasons in a particular case violates the Constitution,” the state court was
entitled to “the substantial deference that AEDPA requires.” Jackson, 569 U.S. at 511-12; see also
Kubsch v. Neal, 838, F.3d 845, 859 (7th Cir. 2016) (noting that to prove a Sixth Amendment

9

» Case 2:19-CV-00012-JRS-DLP Document 22 Filed 03/30/20 Page 10 of 23 PagelD #: 1994

violation, “the proffered evidence must be essential to the defendant’s ability to present a defense;
it cannot be cumulative, impeaching, unfairly prejudicial, or potentially misleading”). Thus, the
Indiana Court of Appeals’ decision that Nunley was not denied his right to present a defense was
not contrary to or an unreasonable application of clearly established federal law.
Further, even assuming there was a constitutional violation, any error was harmless. As the
Supreme Court has explained,
For reasons of finality, comity, and federalism, habeas petitioners are not entitled
to habeas relief based on trial error unless they can establish that it resulted in actual
prejudice. Under this test, relief is proper only if the federal court has grave doubt
about whether a trial error of federal law had substantial and injurious effect or
influence in determining the jury’s verdict. There must be more than a reasonable
probability that the error was harmful.
Davis v. Ayala, 135 S. Ct 2187, 2197 (2015) (internal quotations and citations omitted). Here, the
Court harbors no grave doubt about whether exclusion of the prior accusation and recantation had
a substantial influence on the jury’s verdict The recanted accusation was not similar to A.Y.’s
accusation against Mr. Nunley. A.Y. had seen Foreman physically attack her mother and was
motivated to lie about the incident because she thought he deserved to be in jail. However, she
recanted her statement six weeks later because she knew lying was wrong. With Mr. Nunley, A.Y.
never wavered from her recounting that Mr. Nunley had molested her, and A. Y. had always enjoyed
going to his house before the incident. Thus, if anything, evidence of the prior accusation and
recantation may have had the effect of bolstering A.Y.’s credibility.
In summary, the Indiana Court of Appeals did not unreasonably apply Jackson, Holmes, or
any other clearly.established federal law, and habeas relief is not warranted for this claim.
B.

Right to Confrontation
Mr. Nunley next argues that his right to confrontation was violated when the trial court

permitted the drumbeat repetition of hearsay evidence to bolster A.Y.’s testimony. The respondent
10

- Case 2:19-cv-00012-JRS-DLP Document 22 Filed 03/30/20 Page 11 of 23 PagelD #: 1995

contends that Mr. Nunley procedurally defaulted this claim by not presenting it to the Indiana
Supreme Court.
If a petitioner in custody pursuant to a state court judgment raises a claim on federal habeas
review without first presenting it through “one complete round of the State’s established appellate
review process,” that claim is procedurally defaulted. O’Sullivan v. Boerckel, 526 U.S. 838, 845
(1999); see also see also Hicks v. Hepp, 871 F.3d 513, 530-31 (7th Cir. 2017). The petitioner must
‘“fairly present’ his claim in each appropriate state court (including a state supreme court with
powers of discretionary review), thereby alerting that court to the federal nature of the claim.”
Baldwin v. Reese, 541 U.S. 27, 29 (2004) (citing Boerckel, 526 U.S. at 845). The petitioner must
present “both the operative facts and controlling law.” Anderson v. Benik, 471 F.3d 811, 814 (7th
Cir. 2006) (internal citation omitted).
Mr. Nunley raised a Sixth Amendment Confrontation Clause argument in his brief to the
Indiana Court of Appeals, dkt. 14-3 at 29-31, but he did not renew that argument in his brief to the
Indiana Supreme Court. Rather, he argued that the drumbeat repetition through witnesses and
video of A.Y.’s accusation contravened an Indiana Supreme Court decision, Modesitt v. State, 578
N.E.2d 649 (1991). Dkt. 14-6 at 8-10. There, the Indiana Supreme Court modified a state
evidentiary rule. Modesitt, 578 N.E.2d at 653-54. It was not a Sixth Amendment case.
In response, Mr. Nunley argues that he sufficiently raised the claim in his brief to the
Indiana Court of Appeals and that this was fair presentment to the Indiana Supreme Court due to .
Indiana’s Rules of Appellate Procedure. Under Indiana Rule of Appellate Procedure 58, if the
Indiana Supreme Court grants transfer on a case, it then has “jurisdiction over the appeal and all
issues as if originally filed in the Supreme Court.” Mr. Nunley argues, then, that because the issue
was argued in his brief to the Court of Appeals, it was necessarily presented to the Indiana Supreme

11

-Case 2:19-cv-00012-JRS-DLP Document 22 Filed 03/30/20 Page 12 of 23 PagelD #: 1996

Court, and he was not required to resubmit those claims in his petition to transfer. Dkt. 19 at 13—14.
But that was the same scenario presented to the Supreme Court in Boerckel. There, the respondent
raised several constitutional issues in his brief to the Illinois Appellate Court but did not include
those claims when he filed his petition for leave to appeal to the Illinois Supreme Court. Boerckel,
526 U.S. at 840. The Court held that “a prisoner who fails to present his claims in a petition for
discretionary review to a state court of last resort” has not “properly presented his claims to the
state courts,” resulting in procedural default of those claims. Id. at 848.
Because Mr. Nunley did not raise this claim in his petition to transfer to the Indiana
Supreme Court, the claim is procedurally defaulted.
C.

Ineffective Assistance of Trial Counsel
Mr. Nunley alleges that trial counsel rendered ineffective assistance of counsel for various

reasons. To succeed on a claim that trial counsel was ineffective, a petitioner must show that
counsel’s performance was deficient and prejudicial. Maier v. Smith, 912 F.3d 1064,1070 (7th Cir.
2019) (citing Strickland v. Washington, 466 U.S. 668, 689-92 (1984)). Deficient performance
means that counsel’s actions “fell below an objective standard of reasonableness,” and prejudice
requires “a reasonable probability that, but for counsel’s unprofessional errors, the result of the
proceeding would have been different.” Strickland, 466 U.S. at 688, 694.
The Indiana Court of Appeals correctly articulated the Strickland standard in Mr. Nunley’s
post-conviction memorandum decision. Nunley II, 2018 WL 2325438 at *3. The Court addresses
each of Mr. Nunley’s allegations.
1. The State’s Waiver
Mr. Nunley first argues that the respondent waived its ability to challenge his ineffective
assistance of trial and appellate counsel claims by not presenting evidence or legal argument during

12

. Case 2:19-cv-00012-JRS-DLP Document 22 Filed 03/30/20 Page 13 of 23 PagelD #: 1997

post-conviction proceedings. Dkt 2 at 6. The Indiana Court of Appeals rejected this argument,
noting that “[t]he State filed an answer to Nunley’s petition, asserted denials of his claims, and
actively participated at the hearing.” Nunley II, 2018 WL 2325438 at *3, n.l. Whether an Indiana
court should have enforced Indiana’s waiver rule against the State on post-conviction review is
not a matter for this Court Washington v. Boughton, 884 F.3d 692, 701 (7th Cir., 2018) (state
court’s conclusion that rests on interpretation of state law “is iron-clad on habeas review”); Estelle
v. McGuire, 502 U.S. 62, 67-68 (1991) (“[I]t is not the province of a federal habeas court to
reexamine state-court determinations on state-law questions.”).
2. Failure to Impeach A. Y.
Mr. Nunley’s first allegation against his trial counsel is that she failed to impeach A.Y.
with inconsistent statements she made in her deposition. Mr. Nunley’s counsel testified at the post­
conviction hearing which occurred on January 12,2017, more than eight years after Mr. Nunley’s
trial. She testified that the only way the jury could convict Mr. Nunley was if they believed A.Y.,
so pointing out inconsistencies to challenge her credibility was part of her trial strategy.
PCR Tr. 27-29. She could not recall if she used the deposition to impeach A.Y. because of the
passage of time, id. at 28, and Mr. Nunley did not try to refresh her memory with the deposition.
The Indiana Court of Appeals held that trial counsel was not ineffective for failing to
impeach A.Y. with the deposition, stating:
Nunley’s trial counsel made strategic choices of how best to cast doubt on A.Y.’s
trial testimony. Counsel had to tread carefully given A.Y. ’s young age and her
emotional state at trial. A.Y. cried during her direct examination and did not want
to discuss the molestation because it was “too scary.” Trial Tr. p. 438. A.Y. was
similarly reluctant to answer questions about the molestation during her deposition
and stated that she did not want to remember it.
Nunley II, 2018 WL 2325438 at *4.

13

• Case 2:19-cv-00012-JRS-DLP Document 22 Filed 03/30/20 Page 14 of 23 PagelD #: 1998

Mr. Nunley names several instances of alleged inconsistencies in A.Y.’s deposition.
Dkt. 19 at 21. The most serious inconsistency is that, during her deposition, A.Y. did not say
anything to support Count 2. Dkt. 15-1, DA App. at 10 (alleging Mr. Nunley committed child
molesting by putting A.Y.’s mouth on his penis). She testified during her deposition that
Mr. Nunley “licked my pee-pee” and “made me watch a nasty show.” DA App. at 219—20, 236.
When prompted as to whether anything else occurred, she stated she did not remember because
“[i]t’s better not to remember.” Id. at 224.When told she would have to remember the details for
the deposition, she responded, “And then the case is finally cut open.... Am I free from it finally?”
Id. An eight-year-old child’s reluctance to disclose specific details during a deposition does not
indicate that she fabricated that allegation. From the moment she got in her parents’ car the day
after the assault, A.Y. struggled to articulate the facts surrounding the molestation. She had to write
down the details of what happened in order to describe what happened to her parents, and—as will
be discussed below—to the jury. Mr. Nunley did not ask trial counsel about this (or any) specific
inconsistency from the deposition. Thus, the Indiana Court of Appeals’ reasoning that it was a
strategic choice for trial counsel to “tread carefully given A.Y.’s young age and her emotional state
at trial” did not run afoul of Strickland. Applying the high deference that AEDPA requires, the
Indiana Court of Appeals’ ruling on this specific allegation was not unreasonable.
Mr. Nunley’s other examples of inconsistencies are much less compelling. He states A.Y.
said her mother told her what to say to the policeman after the incident, but the exchange reveals
that A.Y. was likely just confused by the line of questioning:
Q. Was your mom there with you when you talked to him?
A. Yeah.
Q. Did she tell you what to tell the policeman?

14

- Case 2:19-CV-00012-JRS-DLP Document 22 Filed 03/30/20 Page 15 of 23 PagelD #: 1999

A. No.
Q. Okay.
A. She told me what to remember and stuff.
Q. What did she tell you?
A. Pretty must all what to remember, pretty much all she told to say.
Q. Okay, when she said what to remember, did she say exactly what she wanted
you to remember?
A. Yeah, yeah. Yeah, she wanted me - Yeah.
Q. Can you tell me how she told you?
A. Well, she said it in a nice way, a really nice way, pretty much a nice way.
Q. Okay, can you give me an example of what she told you?
A. What I told her?
Q. No, what - what your mom told you?
A. She told me just to remember what the bad things that Ed Nunley did and stuff
like that.
Q. Okay. And did she tell you what the bad things were that you were supposed to
tell the policeman?
A. No, she really didn’t much knew of - She didn’t have to tell me.

Q. Okay, so when you went and talked to policeman, did you tell them the truth,
everything that you told him?
A. Yeah.

15

, Case 2:19-cv-00012-JRS-DLP Document 22 Filed 03/30/20 Page 16 of 23 PagelD #: 2000

DA App. at 214-16. At trial, A.Y. testified that her parents told her to tell police the truth, but did
not tell her what to say. Tr. 484. Similarly, A.Y.’s mother testified that she told A.Y. to tell the
police officer the truth, but not to exaggerate any details. Tr. 545. This may have been what A.Y.
meant when she said her mom “in a really nice way” told her to say what Mr. Nunley did to her.
Other inconsistencies alleged by Mr. Nunley were not inconsistencies at all. Mr. Nunley
alleges that A.Y. said in her deposition that she had spent the night at his house with her mother
several times, but—consistent with her trial testimony—A. Y. actually stated in the deposition that
She spent the night only once. DA App. at 206-07. lyir. Nunley also alleged that A.Y. said in her
deposition that he did not hurt her. Id. at 240. But A.Y. never accused Mr. Nunley of physically
injuring her when he molested her.
The Indiana Court of Appeals reasonably concluded that trial counsel was not ineffective
for failing to impeach A.Y. with minor inconsistencies in her deposition, and habeas relief is not
warranted on this basis.
3. Failure to Object to A.Y.’s Written Testimony
Mr. Nunley alleges that trial counsel was ineffective for failing to object to A.Y. being
allowed to write down a portion of her testimony describing the molestation and further for not
objecting when the trial court sua sponte admitted the written notes as exhibits. Trial counsel
testified at the post-conviction hearing that submitting the written testimony to the jury was
unusual and placed undue emphasis on that part of her testimony. PCR Tr. 31.
The Indiana Court of Appeals held that trial counsel was not ineffective for not objecting
“when the trial court allowed a distraught eight-year-old child to write her testimony down on a
piece of paper.” Nunley II, 2018 WL 2325438 at *5. It further held that Mr. Nunley could not show
prejudice from the trial court’s admission of the statements into evidence because “A.Y.’s written

16

> Case 2:19-cv-00012-JRS-DLP Document 22 Filed 03/30/20 Page 17 of 23 PagelD #: 2001

statements were consistent with what she had reported to her parents and law enforcement officers,
which evidence was also admitted at trial.” Id. In concluding this, the com! relied on Indiana law
which gives trial courts discretion to permit “‘children to testify under special conditions despite
the possibility that it would emphasize their testimony.... As a result, the manner in which a party
is entitled to question a witness of tender years, especially in embarrassing situations, is left largely
to the discretion of the trial court.’” Id. (quoting Shaffer v. State, 674 N.E.2d 1, 5 (Ind. Ct. App.
1996)).
Again, this Court cannot second-guess the state court’s determination of state law. Estelle,
502 U.S. at 67-68 (1991). In light of Indiana’s rules permitting flexible questioning of child
witnesses, the Indiana Court of Appeals reasonably concluded that trial counsel was not ineffective
on this basis.
4. Failure to Challenge Violation of the Separation of Witnesses Order
Mr. Nunley next challenges his trial counsel’s failure to object to A.Y. having lunch with
her parents, arguing this amounted to a violation of the court’s separation of witnesses order. A.Y.
particularly struggled during the first part of her testimony—crying repeatedly and stating she did
not want to describe the incident in front of so many people. Tr. 438. The court took a break, and
asked one of the prosecutors to go to lunch with A.Y. and her parents to ensure they did not violate
the separation of witnesses order by discussing the case. Tr. 446. Once trial resumed, A-Y. wrote
down and read aloud her testimony about the incident. Tr. 449-50.
Because she was able to testify more effectively after lunch, Mr. Nunley believes that she
was coached during the recess. His trial counsel testified at the post-conviction hearing that she
did not object because, as the trial court said, the point of sending the prosecutor to lunch with
A.Y. and her family was to ensure the separation of witnesses order was not violated. PCR Tr. 34.

17

' Case 2:19-cv-00012-JRS-DLP Document 22 Filed 03/30/20 Page 18 of 23 PagelD #: 2002

The Indiana Court of Appeals rejected this claim, noting first that Mr. Nunley’s contention
that A.Y. was coached over the break was “pure speculation.” Nunley II, 2018 WL 2325438, at *5.
It noted that the trial court’s purpose was to prevent any violation of the separation order, that the
trial court asked the prosecutor whether anything happened during the break, and that it was clearly
appropriate for the court to allow A.Y. to have lunch with her parents given how stressful the trial
was. Id.
The Indiana Court of Appeals reasonably applied Strickland in its determination that trial
counsel was not ineffective on this basis.
5. Cumulative Impact
Mr. Nunley’s final allegation against his trial counsel is that he was prejudiced by the
cumulative effect of trial counsel’s errors. The Indiana Court of Appeals concluded that
Mr. Nunley waived this argument by not citing any authority or presenting a cogent argument as
Indiana Appellate Rule 46(A)(8)(a) required him to do. Nunley II2018 WL 2325438 at *6. The
respondent argues that Mr. Nunley has procedurally defaulted this claim. One type of procedural
default occurs when “the decision of [the state] court rests on a state law ground that is independent
of the federal question and adequate to support the judgment.” Walker v. Martin, 562 U.S. 307,
315 (2011) (citation and internal quotation marks omitted). “This rule applies whether the state
law ground is substantive or procedural.” Coleman v. Thompson, 501 U.S. 722, 729 (1991)
(citations omitted).
“In assessing the adequacy of a state procedural ruling, federal courts do not review the
merits of the state court’s application of its own procedural rules. Instead, we ask whether the rule
invoked was firmly established and regularly followed.” Crockett v. Butler, 807 F.3d 160,167 (7th
Cir. 2015) (citations and quotations marks omitted). Indiana courts regularly find waiver by

18

• Case 2:19-cv-00012-JRS-DLP Document 22 Filed 03/30/20 Page 19 of 23 PagelD #: 2003

invoking Indiana Appellate Rule 46(A)(8)(a). See, e.g. Lacey v. State, 124 N.E.3d 1253,1257 n. 8
(Ind. Ct. App. 2019); Cherry v. State, 57 N.E.3d 867, 876-77 (Ind. Ct. App. 2016); Casady v. State,
934 N.E.2d 1181, 1190 (Ind. Ct. App. 2010) (all finding waiver under Ind. Appellate Rule
46(A)(8)(a) for failing to cite to the record or relevant legal authority). Accordingly, the Court finds
this claim to be procedurally defaulted.
In summary, the Indiana Court of Appeals’ determination that trial counsel did not render
ineffective assistance of counsel for any of the reasons alleged by Mr. Nunley was a reasonable
application of Strickland. Habeas relief is not warranted on this basis.
D.

Ineffective Assistance of Appellate Counsel
Mr. Nunley raises six claims of ineffective assistance of appellate counsel. The Indiana

Court of Appeals correctly identified the Strickland framework for these claims.
1. Failure to Raise Defense Well
Mr. Nunley alleges that his appellate counsel failed to raise his denial of defense argument
well. The Indiana Court of Appeals first noted that his claim was waived pursuant to Indiana
Appellate Rule 46(A)(8)(a) for failing to cite to any portion of the record to support this claim.
The respondent argues that Mr. Nunley therefore procedurally defaulted the claim due to the fact
that the state court’s decision rests on an independent state law ground. Dkt. 14 at 24, citing
Coleman, 501 U.S. at 729.
Because the Court addressed Mr. Nunley’s denial of defense claim above, the Court will
bypass the procedural default question. See Brown v. Watters, 599 F.3d 602, 610 (7th Cir. 2010)
(concluding that it is appropriate to bypass a “difficulf’ procedural default question and “proceed
to adjudicate the merits” when it is “clear” the petition should be denied on the merits).

19

* Case 2:19-cv-00012-JRS-DLP Document 22 Filed 03/30/20 Page 20 of 23 PagelD #: 2004

As discussed at length in section A, the Indiana Court of Appeals properly applied federal
law on direct appeal when it determined that exclusion of evidence about A.Y.’s recantation did
not violate Mr. Nunley’s Sixth Amendment right to present a defense. Further, Mr. Nunley’s
arguments largely mirror those put forth by his appellate counsel on this issue. Compare diet. 2 at
12-13 with dkt. 14-3 at 17-19. Because there was no Sixth Amendment violation, appellate counsel
was not ineffective for the way he presented this claim.
2. Double Jeopardy
Mr. Nunley alleges appellate counsel was ineffective for failing to raise a double jeopardy
claim. He argues that because all three acts involved a single confrontation with a single victim,
convictions on Counts 1, 2, and 5 violate the Double Jeopardy Clause. In support, he relies on an
Indiana Supreme Court case, Bowling v. State, 560 N.E.2d 658, 660 (Ind. 1990), where the court
held that “imposition of two sentences for the same injurious consequences sustained by the same
victim during a single confrontation violated both Federal and State double jeopardy prohibitions,”
requiring that one of the defendant’s child molest convictions be set aside (citing Ellis v. State, 528
N.E.2d 60 (Ind. 1988)).
Rejecting this claim, the Indiana Court of Appeals stated:
But the authority that Nunley relies upon, Bowling v. State, 560 N.E.2d 658 (Ind.
1990), was impliedly overruled by our supreme court in Richardson v. State, 111
N.E.2d 32 (Ind. 1999). See Vermillion v. State, 978 N.E.2d 459, 465 (Ind. Ct. App.
2012) (stating that “when Richardson was decided in 1999, it abrogated a number
of cases that articulated die ‘single incident’ reasoning found in Bowling.
However, Richardson made no mention of Bowling.”). The Vermillion court held
that “[a] trial court may impose consecutive sentences for separate and distinct
crimes that arise out of a single confrontation involving the same victim—subject
to Richardson’s double-jeopardy protections, other sentencing mandates, and our
abuse-of-discretion review.” Id. at 466; see also Ind. Code § 35-50-1-2.

20

* Case 2:19-cv-00012-JRS-DLP Document 22 Filed 03/30/20 Page 21 of 23 PagelD #: 2005

Nunley II, 2018 WL 2325438 at *7. Notably, although the Richardson Court did not mention
Bowling, it included Ellis—the case the Indiana Supreme Court relied upon in Bowling—in its list
of double jeopardy cases abrogated by its decision. Richardson, 717 N.E.2d at 49, n. 36.
The Indiana Court of Appeals’ determination that Mr. Nunley relied on precedent that was
“impliedly overruled” is based on state law, making it a decision that this Court cannot secondguess. Estelle, 502 U.S. at 67-68; see also Miller v. Zatecky, 820 F.3d 275,280 (7th Cir. 2016) (“A
federal court cannot disagree with a state court’s resolution of an issue of state law.”). Habeas
relief is not warranted on this issue.
3. Failure to Challenge Sentencing
Mr. Nunley alleges that appellate counsel was ineffective for failing to challenge his
sentence. The Court of Appeals rejected the claim on post-conviction review. With respect to
Mr. Nunley’s contention that the trial court abused its discretion for aggravating his sentence based
on uncharged criminal conduct, the court noted that “[i]t is well-established that trial courts may
consider previous criminal activity, even though uncharged, in the determination of aggravating
circumstances at sentencing.” Nunley II, 2018 WL 2325438 at *8 (internal quotation and citation
omitted). With respect to Mr. Nunley’s argument that appellate counsel should have challenged
the appropriateness of his sentence pursuant to Indiana Appellate Rule 7B, the court rejected that
claim, finding “[h]ad appellate counsel raised the issue, our court would almost certainly have
concluded that Nunley’s sentence was not inappropriate in light of the nature of the offense and
character of the offender.” Id.
As with the previous issue, the Court of Appeals’ analysis is based on state sentencing
jurisprudence, which the Court has no authority to disagree with. Miller, 820 F.3d at 277.

21

v Case 2:19-cv-00012-JRS-DLP Document 22 Filed 03/30/20 Page 22 of 23 PagelD #: 2006

4. Failure to Impeach A.Y., Challenge the Introduction of A.Y.’s Written Testimony,
and Challenge the Separation of Witnesses
Mr. Nunley’s remaining claims overlap with the ineffective assistance of trial counsel
claims discussed above. The Indiana Court of Appeals found that because Mr. Nunley had not
shown that his trial counsel was ineffective for failing to raise those issues, appellate counsel was
not ineffective for failing to raise them either. Nunley II, 2018 WL 2325438 at *6, n. 3. This was
a reasonable application of federal law.
In summary, the Court of Appeals reasonably applied Strickland when it determined that
appellate counsel was not ineffective.
IV. Certificate of Appealability
“A state prisoner whose petition for a writ of habeas corpus is denied by a federal district
court does not enjoy an absolute right to appeal.” Buck v. Davis, 137 S. Ct 759, 773 (2017).
Instead, a state prisoner must first obtain a certificate of appealability. See 28 U.S.C. § 2253(c)(1).
“A certificate of appealability may issue ... only if the applicant has made a substantial showing
of the denial of a constitutional right.’” 28 U.S.C. § 2253(c)(2). In deciding whether a certificate
of appealability should issue, “the only question is whether the applicant has shown that jurists of
reason could disagree with the district court’s resolution of his constitutional claims or that jurists
could conclude the issues presented are adequate to deserve encouragement to proceed further.”
Buck, 137 S. Ct. at 773 (citation and quotation marks omitted).
Further, where a claim is resolved on procedural grounds (such as procedural default), a
certificate of appealability should issue only if reasonable jurists could disagree about the merits
of the underlying constitutional claim and about whether the procedural ruling was correct. FloresRamirezv. Foster, 811 F.3d 861, 865 (7th Cir. 2016).

22

v Case 2:19-cv-00012-JRS-DLP Document 22 Filed 03/30/20 Page 23 of 23 PagelD #: 2007

Rule 11(a) of the Rules Governing Section 2254 Proceedings in the United States District
Courts requires the district court to “issue or deny a certificate of appealability when it enters a
final order adverse to the applicant.” Mr. Nunley’s claims are procedurally defaulted or meritless.
Jurists of reason would not disagree with this Court’s resolution of his claims, and nothing about
the claims deserves encouragement to proceed further.
The Court therefore denies a certificate of appealability.
V. Conclusion
Mr. Nunley’s petition for a writ of habeas corpus pursuant to 28 U.S.C. § 2254 is denied,
and a certificate of appealability shall not issue. Final judgment in accordance with this decision
shall issue.
IT IS SO ORDERED.
Date:

3/30/2020
JAMES R. SWEENEY II, JUDGE
United States District Court
Southern District of Indiana

Distribution:
LAWRENCE NUNLEY
198710
WABASH VALLEY - CF
WABASH VALLEY CORRECTIONAL FACILITY - Inmate Mail/Parcels
Electronic Service Participant - Court Only
Jesse R. Drum
INDIANA ATTORNEY GENERAL
jesse.drum@atg.in.gov

23

3Jn fye

Stibtana Supreme Court
Court of Appeals Case No.
31A01-1703-PC-00547

Lawrence Nunley,
Appellant(s),

Trial Court Case No.
31D01-1009-PC-11

v.
State Of Indiana,
Appellee(s).

FILED
Aug 09 2018, 4:05 pm

CLERK

Indiana Supreme Court
Court of Appeals .
W and Tax Court J

Order
This matter has come before the Indiana Supreme Court on a petition to transfer
jurisdiction, filed pursuant to Indiana Appellate Rules 56(B) and 57, following the issuance of a
decision by the Court of Appeals. The Court has reviewed the decision of the Court of Appeals,
and the submitted record on appeal, all briefs filed in the Court of Appeals, and all materials
filed in connection with the request to transfer jurisdiction have been made available to the
Court for review. Each participating member has had the opportunity to voice that Justice’s
views on the case in conference with the other Justices, and each participating member of the
Court has voted on the petition.
Being duly advised, the Court DENIES the petition to transfer.
Done at Indianapolis, Indiana, on8^2018

Loretta H. Rush
Chief Justice of Indiana
All Justices concur.

ni bt '

OocuSign Envelope ID: 317B1609-A744-4AB5-8A16-F7685EC558B0

MEMORANDUM DECISION

FILED

Pursuant to Ind. Appellate Rule 65(D),
this Memorandum Decision shall not be
regarded as precedent or cited before any
court except for the purpose of establishing
the defense of res judicata, collateral
estoppel, or the law of the case.

May 23 2018, 8:31 am

CLERK
Indiana Supreme Court
Court of Appeals .
W. and Tax Court J

Appellant prose

Attorneys for Appellee

Lawrence Nunley
Carlisle, Indiana

Curtis T. Hill, Jr.
Attorney General of Indiana
Ian McLean
Deputy Attorney General
Indianapolis, Indiana

IN THE

COURT OF APPEALS OF INDIANA
Lawrence Nunley,

May 23, 2018

Appellant-Petitioner,

Court of Appeals Case No.
31A01-1703-PC-547

v.
State of Indiana,
Appellee-Respondent.

Appeal from the Harrison Superior
Court
The Honorable Joseph L.
Claypool, Judge
Trial Court Cause No.
31D01-1009-PC-011

Mathias, Judge.
[i]

Lawrence Nunley (“Nunley”) appeals pro se the Harrison Superior Court’s
denial of his petition for post-conviction relief. Nunley claims that post-

Court of Appeals of Indiana | Memorandum Decision 31A01-1703-PC-547 | May 23, 2018

Page 1 of 20

DecuSign Envelope ID: 317B1609-A744-4AB5-8A16-F7685EC558B0

conviction relief is warranted because both his trial and appellate counsel were
ineffective.
[2]

We affirm.

Facts and Procedural History
[3]

The facts surrounding Nunley’s convictions were described in Nunley v. State,
916 N.E.2d 712 (Ind. Ct. App. 2009), trans. denied, and are reproduced here:
Nunley lived with his teenage son and his son’s girlfriend, K.S.
K.S. sometimes babysat six-year-old A.Y. A.Y.’s mother, T.C.,
testified A.Y. “loved [K.S.] to death.” On April 13, 2007, A.Y.
asked to spend the night at Nunley’s residence. When T.C.
dropped off A.Y., Nunley told her K.S. was on the way there.
T.C. was under the impression that K.S. would be watching A.Y.
According to A.Y., K.S. and her boyfriend were there for only a
brief time that night.
Sometime during the evening, Nunley called A.Y. back to his
bedroom and showed her a pornographic video. A.Y. was
wearing a tee shirt and panties. He took off her panties and licked
her vagina. He also made her suck on his penis.
The next day, T.C. and R.C. picked up A.Y. After they had been
in the car for a few minutes, A.Y. told them she and Nunley had
a secret. A.Y. would not say what it was, so T.C. tried to trick
her into telling by saying, “That’s okay. I know what the secret
is.” Then A.Y. wanted to tell them, but she did not want to say it
out loud, so her parents gave her a pencil and an envelope to
write on. Her note indicated she “was sucking his weenie-bob
and he was licking my pee-pee.”
After reading the note, T.C. turned the vehicle around and went
back to Nunley’s residence. She took a bat and started hitting
Nunley’s motorcycle and truck so he would come outside.
Court of Appeals of Indiana | Memorandum Decision 31A01-1703-PC-547 | May 23, 2018

Page 2 of 20

DocuSign Envelope ID: 317B1609-A744-4AB5-8A16-F7685EC558B0

Nunley came to the door. T.C. yelled at him and accused him of
molesting A.Y. Nunley denied her accusations.
T.C., R.C., and A.Y. then went to the Washington County
Police Department to make a report. They spoke to State
Trooper Kevin Bowling. Trooper Bowling first attempted to
interview A.Y. alone, but that did not work well, so T.C. stayed
in the room with her while A.Y. answered questions. A.Y. said
Nunley made her watch a “bad movie.” Trooper Bowling asked
her what she meant by that, and she said, a “naked movie.” T.C.
showed him the note A.Y. had written. T.C. believed she left the
note with Trooper Bowling, but Trooper Bowling had no record
or recollection of what happened with the note. Trooper Bowling
referred the case to the Department of Child Services.
Authorities tried to arrange a forensic interview of A.Y., but T.C.
did not immediately follow through. The interview was finally
conducted on April 18, 2008, a little over a year after A.Y. was
molested.
Donna Lloyd Black conducted the forensic interview of A.Y. at
Comfort House. A.Y.’s interview was videotaped. Comfort
House has an observation room for representatives from the
prosecutor’s office, law enforcement, and the Department of
Child Services. Black can communicate with them by two-way
radio, but a child being interviewed cannot see or hear the people
in the observation room. Detective William Wibbels was in the
observation room during A.Y.’s interview.
Nunley was charged with four counts of Class A felony child
molesting: Count 1 alleged he touched A.Y.’s vagina with his
mouth, Count 2 alleged he made A.Y. put her mouth on his
penis, Count 3 alleged he put his hand in A.Y.'s vagina, and
Count 4 alleged he touched A.Y.’s vagina with his penis. He was
also charged with one count of Class D felony dissemination of
matter harmful to minors, which alleged he showed A.Y. a
pornographic movie.

Court of Appeals of Indiana | Memorandum Decision 31A01-1703-PC-547 | May 23,2018

Page 3 of 20

DocuSign Envelope ID: 317B1609-A744-4AB5-8A16-F7685EC558B0

At the time of trial, A. Y. was eight years old. A.Y. started crying
at several points during her testimony and needed multiple
breaks. A.Y. stated it was hard to say what had happened and
that she could only write it. The prosecutor then had her write
down what happened and read it to the jury. She testified she
saw Nunley’s penis when he made her suck on it and he licked
her “pee pee.” A.Y. testified he forced her to do these things by
threatening to hurt her parents or call the police.
T.C. testified as to why she did not immediately bring A.Y. for a
forensic interview: “I had second thoughts ... just because of the
fact of putting my daughter through this. And not only that...
there's a side of you that thinks maybe if you just don't
acknowledge it, that it'll go away. ” A juror asked, “ [W]hat made
you continue to think about it? What, was it brought up by
[A.Y.]?” T.C. responded, “No, it wasn't brought up by [A.Y.]. It
was brought up by other people. Uhm, there were other
allegations that I had heard about.” Nunley objected and moved
for a mistrial, because T.C. had been instructed not to refer to
any other allegations against him. The trial court denied the
motion for mistrial because T.C. did not specify the nature of the
allegations, and it instructed the jury to disregard T.C.'s answer.
The videotape was played for the jury. The video was difficult to
understand in some places, but Black testified she was able to
understand what A.Y. was saying to her during the interview.
The prosecutor therefore asked Black to recount how A.Y. had
said Nunley had touched her. Black testified A.Y. said Nunley
“touched her on her pee-pee with his weenie-bob, his hand and
his tongue,” that he “made her put his weenie-bob in her mouth
and suck it,” and that he made her watch a video with naked
people in it. Detective Wibbels also testified concerning A.Y.'s
allegations made during the interview.
Nunley testified in his own behalf. He claimed T.C. called and
asked if he could watch A.Y. while she went to Corydon. He
asserted T.C. did not bring any extra clothes for A.Y., and he did
not think A.Y. would be spending the night. He claimed A.Y. fell
Court of Appeals of Indiana | Memorandum Decision 31A01-1703-PC-547 | May 23, 2018

Page 4 of 20

DocuSign Envelope ID: 317B1609-A744-4AB5-8A16-F7685EC558B0

asleep on the couch soon after arriving, and then his friend,
Michelle Cayton, came over to Nunley's residence to spend the
night, leaving shortly before T.C. picked up A.Y. Nunley
claimed he was in a relationship with T.C., and when T.C. came
to pick up A.Y., she asked to move in with him. He would not let
her, and she was angry when she left. Although Nunley
voluntarily spoke with the police, he never told them Cayton had
been at his residence on the night in question.
The jury found Nunley guilty as charged.
Id. at 714-16 (record citations omitted). Nunley was ordered to serve an
aggregate sentence of seventy-six years and four months.
[4]

On appeal, our court held that the trial court committed reversible error by
admitting A.Y.’s hearsay statements made during her interview at the Comfort
House approximately one year after the molestation occurred. Because the
unreliable hearsay statements were the only evidence supporting Counts 3 and
4, our court reversed Nunley’s convictions on those counts. As a result,
Nunley’s aggregate sentence was reduced by four years and eight months. We
affirmed the trial court in all other respects.

[5]

On September 24, 2010, Nunley filed a pro se petition for post-conviction relief,
and he amended his petition on January 14, 2016. The post-conviction court
held an evidentiary hearing on January 12, 2017. The court denied Nunley’s
petition after concluding that his trial counsel’s and appellate counsel’s
performance was not deficient.

[6]

Nunley now appeals. Additional facts will be provided as necessary.

Court of Appeals of Indiana | Memorandum Decision 31A01-1703-PC-547 | May 23,2018

Page 5 of 20

DocuSign Envelope ID: 317B1609-A744-4AB5-8A16-F7685EC558B0

Standard of Review
[7]

Nunley appeals the post-conviction court's denial of his petition for post­
conviction relief.1
The petitioner in a post-conviction proceeding bears the burden
of establishing grounds for relief by a preponderance of the
evidence. When appealing the denial of post-conviction relief, the
petitioner stands in the position of one appealing from a negative
judgment. To prevail on appeal from the denial of post­
conviction relief, a petitioner must show that the evidence as a
whole leads unerringly and unmistakably to a conclusion
opposite that reached by the post-conviction court. Further, the
post-conviction court in this case made findings of fact and
conclusions of law in accordance with Indiana Post-Conviction
Rule 1(6). Although we do not defer to the post-conviction
court's legal conclusions, [a] post-conviction court's findings and
judgment will be reversed only upon a showing of clear error—
that which leaves us with a definite and firm conviction that a
mistake has been made.
Campbell v. State, 19 N.E.3d 271, 273-74 (Ind. 2014) (citations and quotations
omitted).

[8]

Moreover, post-conviction proceedings are not “super appeals” through which
convicted persons can raise issues they failed to raise at trial or on direct appeal.
McCary v. State, 761 N.E.2d 389, 391 (Ind. 2002). Post-conviction proceedings

1 Nunley’s claim that the State abandoned its right to defend against Nunley’s arguments raised in his
petition for post-conviction relief because the State failed to present evidence or argument at the hearing on
his post-conviction relief lacks merit The State filed an answer to Nunley’s petition, asserted denials of his
claims, and actively participated at the hearing.
Court of Appeals of Indiana | Memorandum Decision 31A01-1703-PC-547 | May 23,2018

Page 6 of 20

DocuSign Envelope ID: 317B1609-A744-4AB5-8A16-F7685EC558B0

instead afford petitioners a limited opportunity to raise issues that were
unavailable or unknown at trial and on direct appeal. Davidson v. State, 763
N.E.2d 441, 443 (Ind. 2002).

Ineffective Assistance of Trial Counsel
[9]

First, we address Nunley’s claim that his trial counsel was ineffective. A claim
of ineffective assistance of trial counsel requires a showing that: (1) Nunley’s
trial counsel’s performance was deficient by falling below an objective standard
of reasonableness; and (2) that the deficient performance prejudiced Nunley
such that “there is a reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceeding would have been different.
Strickland v. Washington, 466 U.S. 668, 669 (1984). Failure to satisfy either of the
two elements will cause the claim to fail. French v. State, 778 N.E.2d 816, 824
(Ind. 2002). And “[ijsolated mistakes, poor strategy, or bad tactics do not
necessarily amount to ineffective assistance of counsel.” Herrera v. State, 679
N.E.2d 1322,1326 (Ind. 1997) (citations omitted).

[10]

If it is easier to dispose of an ineffectiveness claim on the lack of prejudice, then
this is the course we should follow. Trujillo v. State, 962 N.E.2d 110, 114 (Ind.
Ct. App. 2011). Prejudice occurs when a reasonable probability exists that, but
for counsel’s errors, the result of the proceeding would have been different.
Passwaterv. State, 989 N.E.2d 766, 770 (Ind. 2013).

[ii]

Nunley claims that his trial counsel was ineffective for: (1) failing to use A.Y.’s
deposition testimony to impeach her at trial; (2) failing to object when the trial
Court of Appeals of Indiana | Memorandum Decision 31A01-1703-PC-547 | May 23, 2018

Page 7 of 20

DocuSign Envelope ID: 317B1609-A744-4AB5-8A16-F7685EC558B0

court allowed A.Y. to write down her trial testimony and failing to object when
the trial court admitted the written testimony into evidence; (3) failing to object
to the admission of the State’s Exhibit 2, a DVD entitled “Sex Ed Tutor”; (4)
failing to object when the trial court allowed A.Y. to have lunch with her
parents, who had not yet testified, in violation of the separation of witnesses
order; and (5) failing to object to testimony vouching for A.Y.’s credibility.
[12]

As we address Nunley’s claims, we do so under the principle that
“ [representation is constitutionally ineffective only if the proper functioning of
the adversarial process was so undermined that the defendant was denied a fair
trial.” Woodson v. State, 961 N.E.2d 1035, 1042 (Ind. Ct. App. 2012), trans.
denied. And we do not “second-guess” strategic decisions requiring reasonable
professional judgment even if the strategy in hindsight did not best serve the
defendant’s interests. State v. Moore, 678 N.E.2d 1258, 1261 (Ind. 1997).
A. A. Y. ’s Deposition Testimony

[13]

First, we observe that the method used to impeach a witness is a tactical
decision and a matter of trial strategy that does not amount to ineffective
assistance. See Kubsch v. State, 934 N.E.2d 1138, 1151 (Ind. 2010), see also
Waldon v. State, 684 N.E.2d 206, 208 (Ind. Ct. App. 1997) (stating that the
nature and extent of cross-examining a witness is a matter of trial strategy that
is left to trial counsel), trans. denied.

[14]

Nunley’s defense at trial was that A.Y. fabricated her claim that Nunley
molested her. A.Y. was six years old when Nunley molested her in April 2008,
Court of Appeals of Indiana | Memorandum Decision 31A01-1703-PC-547 | May 23,2018

Page 8 of 20

DocuSign Envelope ID: 317B1609-A744-4AB5-8A16-F7685EC558B0

and she gave her deposition over a year later when she was seven. Nunley’s
trial counsel made strategic choices of l^ow best to cast doubt on A.Y.’s trial
testimony. Counsel had to tread carefully given A.Y.’s young age and her
emotional state at trial. A.Y. cried during her direct examination and did not
want to discuss the molestation because it was “too scary.” Trial Tr. p. 438.
A.Y. was similarly reluctant to answer questions about the molestation during
her deposition and stated that she did not want to remember it. For all of these
reasons, we conclude that Nunley’s trial counsel was not ineffective for failing
to use A.Y.’s deposition testimony to impeach her at trial.
B. A. Y. ’s Written Trial Testimony
[15]

Nunley also argues that his trial counsel should have objected when the trial
court allowed A.Y. to write down her trial testimony and when those
documents were admitted into evidence and given to the jury. Nunley cites to
Shaffer v. State, 614 N.E.2d 1 (Ind. Ct. App. 1996), trans. denied, in which our
court stated that “Indiana law is distinctly biased against trial procedures which
tend to emphasize the testimony of any single witness.” Id. at 5 (citation and
quotation omitted). But our court also observed that for a child, testifying in
court can be a traumatic experience, and therefore “trial courts have permitted
children to testify under special conditions despite the possibility that it would
emphasize their testimony.” Id. “As a result, the manner in which a party is
entitled to question a witness of tender years, especially in embarrassing
situations, is left largely to the discretion of the trial court. ” Id. (citing Jackson v.
State, 535 N.E.2d 1173, 1174 (Ind. 1989)).
Court of Appeals of Indiana | Memorandum Decision 31 AO 1-1703-PC-547 | May 23, 2018

Page 9 of 20

DocuSign Envelope ID: 317B1609-A744-4AB5-8A16-F7685EC558B0

[16]

At trial, A.Y. was distressed and cried when she was asked to testify about the
molestation. She was afraid to answer the prosecutor’s questions because of the
number of people in the courtroom. Trial Tr. pp. 438—39. She asked if she could
write down her answers to the State’s questions, and the trial court allowed her
to do so. In response to questions concerning where she and Nunley were when
she saw his “weenie bob” and “what happened that night,” A.Y. wrote on one
piece of paper, “I was on the bed and Ed was to” and “He made me suck on his
weeny bob.”2 Trial Tr. pp. 441—42; Trial Ex. Vol., Joint Ex. 1. On another piece
of paper she wrote, “He made me suck on his weedy bob.” Trial Ex. Vol., Joint
Ex. 2. The trial court sua sponte admitted the two written statements into
evidence to “identify it as the pieces of paper the witness . . . wrote on, which is
in effect... part of her testimony.” Trial Tr. p. 445. A.Y. later read her
statement on Joint Exhibit 2 to the jury. Trial Tr. p. 450.

[17]

Nunley’s counsel was not ineffective for failing to object when the trial court
allowed a distraught eight-year-old child to write her testimony down on a piece
of paper; Moreover, Nunley has not established prejudice in the trial court’s
decision to admit the two written statements into evidence. A.Y.’s written
statements were consistent with what she had reported to her parents and law
enforcement officers, which evidence was also admitted at trial.

2 A.Y. testified that she called male genitals “-weenie-bobs.” Trial Tr. p. 425.
Court of Appeals of Indiana I Memorandum Decision 31A01-1703-PC-547 | May 23,2018

Page 10 of 20

DocuSign Envelope ID: 317B1609-A744-4AB5-8A16-F7685EC558B0

C. Admission ofthe DVD
[18]

Nunley claims that his trial counsel was ineffective for failing to object to the
admission of a DVD entitled “Sex Ed Tutor.” Nunley claims that the DVD was
not properly authenticated because A. Y. did not view the contents of the DVD
at trial and could not identify the title of the DVD that Nunley showed to her.
Further, Nunley argues that the DVD was the only “tangible evidence” to
support his conviction on Count V, Class D felony dissemination of matter
harmful to minors.

[19]

Indiana Evidence Rule 901(a) provides that “[t]o satisfy the requirement of
authenticating or identifying an item of evidence, the proponent must produce
evidence sufficient to support a finding that the item is what the proponent
claims it is.” Authenticity may be established, among other methods, by
“ [testimony of a [wjitness with [kjnowledge. . . that an item is what it is
claimed to be[.]” Ind. Evid. R. 901(b)(1).

[20]

At trial, A.Y. testified that Nunley showed her a movie with naked boys and
girls “doing bad stuff to each other.” Trial Tr. p. 431. She identified State’s Ex.
2 as the “DVD that has the bad stuff on it,” Id. at 432, and that it was the DVD
that Nunley had her watch in his bedroom. A.Y. testified that she saw the DVD
before Nunley put it into the DVD player, and she identified it as the same
DVD at trial. Id. at 469. Detective William Wibbels, who searched Nunley’s
home, testified that he found the DVD in Nunley’s apartment. It was then
admitted into evidence. Id. at 661—62. Because A.Y. testified that the DVD was
the same one Nunley made her watch and she recognized it from seeing it in his
Court of Appeals of Indiana | Memorandum Decision 31A01-1703-PC-547 | May 23,2018

Page 11 of 20

DocuSign Envelope ID: 317B1609-A744AAB5-8A16-F7685EC558B0

apartment before he put it in the DVD player, Nunley’s trial counsel was not
ineffective for failing to object to the admission of the DVD.
D. Separation of Witnesses
[21]

The purpose of a separation of witnesses order is to prevent the testimony of
one witness from influencing that of another. Smiley v. State, 649 N.E.2d 697,
699 (Ind. Ct. App. 1995), trans. denied. Nunley claims the separation of
witnesses order was violated because during trial and before A. Y. had finished
testifying, the trial court allowed A.Y. to have lunch with her parents, who
were also on the witness list. The trial court also ordered the prosecuting
attorney to accompany them to lunch. Nunley argues that before lunch, A.Y.
refused to answer several questions, but after lunch she was willing to answer
those same questions. Nunley claims that A.Y. was “provided with appropriate
answers during the recess.” Appellant’s Br. at 26.

[22]

Much of Nunley’s argument amounts to pure speculation. And the trial court
sent the deputy prosecutor to lunch with A.Y. and her parents to ensure that the
separation of witnesses order was not violated. The trial court inquired of the
prosecutor if anything needed to be addressed before trial resumed, and the
prosecutor replied in the negative. Trial Tr. p. 447. Moreover, it was certainly
not unreasonable for the trial court to allow A.Y. to have lunch with her
parents. It is evident from the record before us that the trial was very stressful
for the young child. For all of these reasons, Nunley’s trial counsel was not
ineffective for failing to object to the violation of the separation of witnesses
order.
Court of Appeals of Indiana | Memorandum Decision 31A01-1703-PC-547 | May 23, 2018

Page 12 of 20

DocuSign Envelope ID: 317B1609-A744-4AB5-8A16-F7685EC558B0

E. Vouching Testimony
[23]

Nunley asserts that his trial counsel was ineffective for failing to object to
Detective Wibbels’s testimony “vouching for the veracity and truthfulness of
A.Y.” Appellant’s Br. at 28. Nunley failed to provide a record citation to the
alleged vouching testimony. Therefore, Nunley waived this claim on appeal. See
e.g. Thomas v. State, 965 N.E.2d 70, 77 n.2 (Ind. Ct. App. 2012), trans. denied;
Ind. Appellate Rule 46(A)(8)(a).
F. Cumulative Error

[24]

Finally, Nunley claims that even if the alleged individual errors were not
prejudicial, their cumulative effect was. However, Nunley does not cite to any
authority or present any argument addressing how he was prejudiced by the
cumulative impact. Therefore, he has waived this issue on appeal. Ind.
Appellate Rule 46(A)(8)(a).

Ineffective Assistance of Appellate Counsel
[25]

Nunley also Haims that his appellate counsel was constitutionally ineffective for
several reasons.3 When we review claims of ineffective assistance of appellate
counsel, we use the same standard applied to claims of ineffective assistance of
trial counsel, i.e., Nunley must show that appellate counsel's performance fell

3 Nunley r1aim«: that appellate counsel was ineffective for failing to raise the issues and arguments that he
argues his trial counsel was ineffective for failing to raise. Because we conclude that Nunley’s trial counsel
was not ineffective, we similarly conclude that Nunley cannot establish that he was prejudiced by those
alleged errors. Therefore, Nunley’s appellate counsel was not ineffective for failing to raise those issues on
appeal.
Court of Appeals of Indiana | Memorandum Decision 31A01-1703-PC-547 | May 23, 2018

Page 13 of 20

DocuSign Envelope ID; 317B1609-A744-4AB5-8A16-F7685EC558B0

below an objective standard of reasonableness and that there is a reasonable
probability that, but for the deficient performance of counsel, the result of the
proceeding would have been different. Manzano v. State, 12 N.E.3d 321, 329
(Ind. Ct. App. 2014) (citing Harris v. State, 861 N.E.2d 1182, 1186 (Ind. 2007)),
trans. denied. To show that counsel was ineffective for failing to raise an issue on
appeal, the defendant must overcome the strongest presumption of adequate
assistance, and judicial scrutiny is highly deferential. Id. (citing Reed v. State, 856
N.E.2d 1189,1195 (Ind. 2006)).
[26]

To evaluate the performance prong when counsel failed to raise issues upon
appeal, we apply the following test: (1) whether the unraised issues are
significant and obvious from the face of the record, and (2) whether the
unraised issues are “clearly stronger” than the raised issues. Id. If the analysis
under this test demonstrates deficient performance, then we examine whether
“the issues which . .. appellate counsel failed to raise, would have been clearly
more likely to result in reversal or an order for a new trial.” Id. at 329-30.

[27]

Ineffective assistance is very rarely found in cases where a defendant asserts that
appellate counsel failed to raise an issue on direct appeal because the decision of
what issues to raise is one of the most important strategic decisions to be made
by appellate counsel. Id. at 330. Indeed, our supreme court has warned that we
“should be particularly sensitive to the need for separating the wheat from the
chaffin appellate advocacy,” and we “should not find deficient performance
when counsel’s choice of some issues over others was reasonable in fight of the
facts of the case and the precedent available to counsel when that choice was
Court of Appeals of Indiana | Memorandum Decision 31A01-1703-PC-547 | May 23, 2018

Page 14 of 20

DocuSign Envelope ID: 317B1609-A744-4AB5-8A16-F7685EC558B0

made.” Reed, 856 N.E.2d at 1196 (quoting Bieghler v. State, 690 N.E.2d 188, 194
(Ind. 1997)).
[28]

Nunley claims that his appellate counsel was ineffective for (1) failing to argue
that Nunley was denied the ability to present his defense because the trial court
refused to admit evidence that A. Y. had made false accusations against another
person, (2) failing to argue a double jeopardy violation, and (3) failing to argue
that Nunley’s sentence was inappropriate.
A. Inability to Present his Defense

[29]

Nunley argues his appellate counsel was ineffective for failing to argue that
Nunley was denied the opportunity to present a complete defense because he
was not able to present evidence that A.Y. had fabricated allegations of abuse
against another person. First, we observe that Nunley does not cite to any
portion of the record where he attempted to have this alleged evidence admitted
at trial. Therefore, his claim is waived. See Ind. Appellate Rule 46(A)(8)(a).

[30]

Moreover, his appellate counsel argued on appeal that the trial court erred
when it excluded evidence that A.Y. “had made a false allegation to the police
on another occasion.” Nunley, 916 N.E.2d at 720. Our court held that the
evidence was properly excluded pursuant to Evidence Rule 608(b), that the
State did not open the door to admission of the evidence, and we rejected the
argument that the rule “should yield to his right to present a defense.” Id. (citing
Saunders v. State, 848 N.E.2d 1117, 1122 (Ind. Ct. App. 2006), trans. denied).

Court of Appeals of Indiana | Memorandum Decision 31A01-1703-PC-547 | May 23, 2018

Page 15 of 20

DocuSign Envelope ID: 317B1609-A744-4AB5-8A16-F7685EC558B0

[31]

Nunley’s appellate counsel petitioned for transfer on the issue, which petition
was ultimately denied. Nunley’s claim that there was additional evidence that
A.Y. fabricated a claim of prior abuse would not have prevailed under Evidence
Rule 608(b) for the same reasons the similar claim was rejected in his direct
appeal. We therefore conclude that Nunley’s appellate counsel was not
ineffective for failing to raise this argument on direct appeal.
B. Double Jeopardy Claim

[32]

Nunley also argues that his appellate counsel was ineffective because he failed
to argue that Nunley was convicted in violation of the Double Jeopardy Clause
for the three acts charged in Counts I, H, and V. Specifically, Nunley claims
that the three acts were “part and parcel of a single confrontation with a single
victim.” Appellant’s Br. at 32.

[33]

But the authority that Nunley relies upon, Bowling v. State, 560 N.E.2d 658 (Ind.
1990), was impliedly overruled by our supreme court in Richardson v. State, 717
N.E.2d 32 (Ind. 1999). See Vermillion v. State, 978 N.E.2d 459, 465 (Ind. Ct.
App. 2012) (stating that “when Richardson was decided in 1999, it abrogated a
number of cases that articulated the ‘single incident’ reasoning found in
Bowling. However, Richardson made no mention of Bowling.”). The Vermillion
court held that “[a] trial court may impose consecutive sentences for separate
and distinct crimes that arise out of a single confrontation involving the same
victim-subject to Richardson’s double-jeopardy protections, other sentencing
mandates, and our abuse-of-discretion review.” Id. at 466; see also Ind. Code §
35-50-1-2.
Court of Appeals of Indiana | Memorandum Decision 31A01-1703-PC-547 | May 23, 2018

Page 16 of 20

DocuSign Envelope ID: 317B1609-A744-4AB5-8A16-F7685EC558B0

i'

[34]

For all of these reasons, Nunley’s appellate counsel was not ineffective for
failing to argue that his sentences for Counts I, II, and V violated double
jeopardy principles.
C. Sentencing Errors

[35]

Lastly, Nunley argues that his appellate counsel was ineffective when he failed
to challenge the trial court’s consideration of uncharged criminal conduct as an
aggravating factor. And he claims his counsel was ineffective for failing to argue
that Nunley’s enhanced and consecutive sentences are inappropriate in light of
the nature of the offense and the character of the offender.

[36]

Nunley did not have a prior criminal history, but the trial court considered as
aggravating that he had a history of criminal behavior because he was under
investigation for molesting another child. The Court noted that it had “heard
sworn testimony with respect to . .. the offenses that. . . the defendant
allegedly committed.” Trial Tr. p. 911. And “the defendant was present, the
defendant’s attorney was present, and the witness was subject to cross
examination.” Id. The court also considered that he was in a position of care
and control of the victim when he molested her. Nunley was ordered to serve
consecutive terms of thirty-five years for the Class A felony child molesting
convictions and twenty-one months for the Class D felony dissemination of
matter harmful to minors conviction.4 Nunley’s sentences were less than the

4 He was also ordered to serve a concurrent thirty-five-year term for Count IH (Class A felony child
molesting) and a consecutive four years and eight months for Count IV (Class C felony child molesting). Our
Court of Appeals of Indiana | Memorandum Decision 31 AO 1-1703-PC-547 | May 23,2018

Page 17 of 20

5

DocuSign Envelope ID: 317B1609-A744-4AB5-8A16-F7685EC558B0
■■i

maximum fifty years allowed by law for a Class A Felony conviction and the
maximum three years allowed for a Class D felony conviction on the date of
Nunley’s sentencing hearing. Ind. Code §§ 35-50-2-4, -7 (2005).
[37]

Nunley’s appellate counsel was not ineffective for failing to argue that the trial
court improperly considered his uncharged criminal conduct as an aggravating
circumstance. It is well-established that trial courts “may consider previous
criminal activity, even though uncharged, in the determination of aggravating
circumstances at sentencing.” Washington v. State, 902 N.E.2d 280, 291 (Ind. Ct.
App. 2009), trans. denied. See also McElroy v. State, 865 N.E.2d 584, 591 (Ind.
2007); Harlan v. State, 971 N.E.2d 163, 170 (Ind. Ct. App. 2012) (stating that
“allegations of prior criminal activity need not be reduced to conviction before
they may be properly considered as aggravating circumstances by a sentencing
court”). The trial court considered sworn testimony that was subject to crossexamination in finding Nunley’s abuse of another child as an aggravating
circumstance.

[38]

Nunley was also not prejudiced by his appellate counsel’s decision to forego an
inappropriate sentence claim. Our court will revise a sentence authorized by
statute only “if, after due consideration of the trial court’s decision, the Court
finds that the sentence is inappropriate in fight of the nature of the offense and
the character of the offender.” Ind. Appellate Rule 7(B). The question is not

court reversed those two convictions on direct appeal, effectively reducing Nunley’s sentence by four years
and eight months.
Court of Appeals of Indiana | Memorandum Decision 31A01-1703-PC-547 | May 23, 2018

Page 18 of 20

DocuSign Envelope ID: 317B1609-A744AAB5-8A16-F7685EC558B0

i:

v

whether another sentence is more appropriate, but whether Nunley’s sentence is
inappropriate. King v. State, 894 N.E.2d 265, 268 (Ind. Ct. App. 2008). The
“nature of the offense” refers to a defendant’s actions in comparison with the
elements of the offense. Cardwell v. State, 895 N.E.2d 1219, 1224 (Ind. 2008).
The “character of the offender” refers to “general sentencing considerations and
the relevant aggravating and mitigating circumstances.” Douglas v. State, 878
N.E.2d 873, 881 (Ind. Ct. App. 2007). Nunley bore the burden of proving that
his less than maximum sentence was inappropriate. Childress v. State, 848
N.E.2d 1073,1080 (Ind. 2006).
[39]

Six-year-old A.Y. was left in Nunley’s care. Nunley terrorized the young child
by making her perform fellatio on him and forcing her to submit to him as he
licked her vagina. Nunley told A.Y. that he would hurt her parents if she did
not perform fellatio on him. He also forced her to watch a pornographic movie.
The trauma A.Y. continued to suffer as a result of Nunley’s actions was evident
at trial. A.Y. was clearly distraught, often cried during her testimony, and took
frequent breaks during her testimony.

[40]

Although Nunley did not have any prior criminal convictions, there was
evidence that he had abused at least one other child and that he was in a
position of trust with that child. And the State presented evidence at sentencing
that Nunley had engaged in misconduct at the jail while awaiting sentencing.

[41]

Had appellate counsel raised the issue, our court would almost certainly have
concluded that Nunley’s sentence was not inappropriate in light of the nature of
Court of Appeals of Indiana | Memorandum Decision 31A01-1703-PC-547 | May 23,2018

Page 19 of 20

DocuSign Envelope ID: 317B1609-A744-4AB5-8A16-F7685EC558B0

the offense and the character of the offender. Therefore, Nunley cannot
establish any prejudice, and we conclude that his appellate counsel was not
ineffective when he failed to challenge Nunley’s sentence.

Conclusion
[42]

For the reasons expressed in this decision, we conclude that Nunley has not
established that his trial counsel or appellate counsel was ineffective. We
therefore affirm the trial court’s denial of his petition for post-conviction relief.

[43]

Affirmed.

Najam, J., and Barnes, J., concur.

Court of Appeals of Indiana | Memorandum Decision 31A01-1703-PC-547 | May 23, 2018

Page 20 of 20

J-

» >•

STATE OF INDIANA

)

IN THE SUPERIOR COURT OF

) SS:
COUNTY OF HARRISON
LAWRENCE NUNLEY
PETITIONER,
-vSTATE OF INDIANA.
RESPONDENT

)
)
)
)
)
)
)
)
)
)
)

OF HARRISON COUNTY

CAUSE NO. 31D01-1009-PC-011

FINDINGS OF FACT AND CONCLUSIONS OF LAW
This matter comes before the Court upon Nunley’s Petition for Post-Conviction Relief.
Evidentiary hearings were held on July 14, 2016 and January 12, 2017. The Court finds the
following:
1. On May 19, 2008, Nunley was charged with Counts I—III, Child Molesting as Class A
felonies; Count IV, Child Molesting, a Class C felony; and Count V Disseminating Matter
Harmful to a Minor, a Class D felony. Susan Schultz was appointed by the court to represent
Nunley during the pretrial, trial, and sentencing phases of the proceedings.
2. Between November 18, 2008 and November 21, 2008, a jury trial was held and Nunley
wasjbund guilty of all counts.
3. On January 15, 2009, Nunley was sentenced to an aggregate 76 years and 4 months.
4. On direct appeal, Nunley was appointed Matthew McGovern as appellant counsel. The
Indiana Court of Appeals dismissed Counts III and IV, reducing Nunley’s sentence by a period
of 4 years and 8 months. His revised sentence is 71 years and 9 months.

'

V

5. On September 24, 2010, Mr. Nunley filed a Petition for Post-Conviction Relief and
requested the Assistance of the State Public Defender. James Michael Sauer, a Deputy State Public
Defender, filed an appearance but subsequently withdrew with this Court’s approval.
6. On January 14, 2016, Nunley amended his post-conviction petition, alleging both
ineffective assistance of trial counsel; and ineffective assistance of appellate counsel.
CONCLUSIONS OF LAW
7. In Indiana, ineffective assistance of counsel claims are governed by the two-part test
announced in Strickland v. Washington, 466 U.S. 668, 685 (1984). And incorporated to Indiana
in Perez v. State, 748 N.E.2d 853, 854 (Ind. 2001). The defendant must show that counsel’s
performance was deficient by falling below an objective standard of reasonableness and the
resulting errors were so serious that they resulted in a denial of counsel guaranteed under the
Sixth Amendment. McCorker v. State, 797 N.E.2d 257, 267 (Ind. 2003). Second, the defendant
must show that the deficient performance prejudiced the defense. Id.
8. The standard or review for a claim of ineffective assistance of appellate counsel is the
same as for a claim of ineffective assistance of trail counsel. Wrinkles v. State, 749 N.E.2d 1179,
1203 (Ind. 2001).
9. The performance of Schultz does not fall below an objective standard of
reasonableness, nor did any imperfections in her defense of Nunley materially prejudice him.
10. The decision on how, when or even if to impeach a distraught minor witness is related
directly to the trial strategy of counsel and anticipating and observing the jury’s reactions at that
moment in time.
11. Similarly, Shultz’s specific instances of not objecting to items or testimony entered
into evidence are not in essence error, and are the result of her judgement as counsel at that time.

I

* />'

12. Further, requiring an upset child witness not to have lunch with her parents during a
trial, could justifiably be interpreted as unreasonable, and objecting to allowing it could
therefore be unreasonable and not deficient performance.
13. McGovern’s choice of argument’s to the Appellant Court are within his discretion as
counsel and what he finds relevant to pursue on behalf of his client. Nunley’s arguments and the
testimony presented at hearing do not indicate that the performance of Appellant counsel do not
fall below an objective standard of reasonableness.
14. Any sentencing issue or possible defense not claimed would likely have had no effect
on the appellate court’s decision or result in a change in sentence.
15. Nunley’s sentence is appropriate under the circumstances.
CONCLUSION
For the above reasons, Nunley’s Petition for Post-Conviction Relief is DENIED.

So ORDERED this 2nd day of March, 2017.

honorable Joseph Claypdol *
udge, Harrison Superior Court

